Department of Homeland Security
   Ofﬁce of Inspector General
          SENSITIVE SECURITY INFORMATION

      Role of the No Fly and Selectee Lists in Securing

                    Commercial Aviation


                                             (REDACTED)





WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know,” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized disclosure may result in civil penalty or other action. For U.S. government agencies,
public release is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.




          SENSITIVE SECURITY INFORMATION

OIG-09-64                                                                                           July 2009
                                        SENSITIVE SECURITY INFORMATION


Table of Contents/Abbreviations

Executive Summary .............................................................................................................1

Background ..........................................................................................................................3

   Secure Flight Program Implementation .........................................................................3 

   Terrorist Screening Database.........................................................................................5 

   No Fly and Selectee Lists ..............................................................................................9 

   Other Watch Lists Derived From the Terrorist Screening Database ...........................14 

Results of Review ..............................................................................................................17

   No Fly and Selectee Lists Reduce Vulnerabilities to Commercial Aviation 

     Security, But Additional Vulnerabilities May Exist.................................................17 

   Recommendation .........................................................................................................22 

   Management Comments and OIG Analysis ................................................................22 

   An Analysis of Encounter Records Demonstrates Watch List Effectiveness..............24 

   Interagency Approach to Commercial Aviation Security Helps to Mitigate 

     Potential Vulnerabilities and Address Potential Gaps ..............................................27 

Conclusion .........................................................................................................................37


Appendices
     Appendix A:         Purpose, Scope, and Methodology........................................................38 

     Appendix B:         TSA Management Comments to the Draft Report................................40 

     Appendix C:         NCTC Management Comments to the Draft Report.............................44 

     Appendix D:         No Fly and Selectee List Implementation Guidance June 

                           2008...................................................................................................46

     Appendix E:         No Fly and Selectee List Nomination Process ......................................54 

     Appendix F:         Securing Commercial Aviation Through Intelligence 

                           Gathering, Watch List Screening, Law Enforcement, and
                           Other Programmatic and Operational Efforts ...................................55 

     Appendix G:         Major Contributors to This Report........................................................56 

     Appendix H:         Report Distribution................................................................................57 





                                        SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520. 

No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, 

except with the written permission of the Administrator of the Transportation Security Administration or the Secretary 

of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, 

public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                                    SENSITIVE SECURITY INFORMATION


Table of Contents/Abbreviations

Abbreviations

    APIS                  Advance Passenger Information System
    CAPPS                 Computer-Assisted Passenger Prescreening System
    CBP                   U.S. Customs and Border Protection
    CLASS                 Consular Lookout and Support System
    DHS                   Department of Homeland Security
    FAMS                  Federal Air Marshal Service
    FBI                   Federal Bureau of Investigation
    GAO                   Government Accountability Office
    NCTC                  National Counterterrorism Center
    NTC–P                 National Targeting Center–Passenger
    OIG                   Office of Inspector General
    SME                   subject matter expert
    TIDE                  Terrorist Identities Datamart Environment
    TSA                   Transportation Security Administration
    TSC                   Terrorist Screening Center
    TSDB                  Terrorist Screening Database
    TSO                   Transportation Security Officer
    VGTOF                 Violent Gang and Terrorist Organization File
    VWP                   Visa Waiver Program




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.
                                    SENSITIVE SECURITY INFORMATION




OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                             At the direction of the House and Senate Committees on
                             Appropriations, Subcommittees on Homeland Security, we
                             reviewed whether potential vulnerabilities exist in commercial air
                             carrier passenger screening. Specifically, we were asked to review
                             the Transportation Security Administration Secure Flight program’s
                             intention to screen passenger information against only the No Fly
                             and Selectee lists, rather than the entire government terrorist watch
                             list database. We analyzed: (1) the watch list criteria and
                             compositions of the No Fly and Selectee lists and the full
                             consolidated Terrorist Screening Database; and (2) the differences
                             between the criteria for inclusion on the No Fly and Selectee lists
                             and the full database. Our objective was to determine whether
                             potential vulnerabilities to the aviation system exist as a result of
                             screening commercial air carrier passenger names against the No
                             Fly and Selectee lists, instead of the full database.

                             The No Fly and Selectee lists are subsets of the federal
                             government’s consolidated watch list, the Terrorist Screening
                             Database.




                             Although the use of the No Fly and Selectee lists is largely
                             successful in identifying potential terrorists who could threaten
                             commercial aviation, some individuals not included on the lists
                             may also present vulnerabilities to aviation security. However,
                             passenger prescreening against terrorist watch lists proposed by the
                             Secure Flight program is only one component of a larger security
                             cycle that protects the nation’s commercial aviation system.
                             International and domestic security activities within and outside of

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                        Page 1
                                    SENSITIVE SECURITY INFORMATION



                             the Department of Homeland Security, such as intelligence
                             gathering, law enforcement investigations, visa issuance, and
                             border protection, mitigate potential vulnerabilities not addressed
                             by the Secure Flight program and enhance commercial aviation
                             security overall.

                             We are making one recommendation to the Assistant Secretary for
                             the Transportation Security Administration to determine whether it
                             is appropriate to

                                                          The Transportation Security
                             Administration concurred in part with the recommendation.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                        Page 2
                                    SENSITIVE SECURITY INFORMATION



Background
                   Securing the commercial aviation sector has been a major priority of the
                   federal government since the terrorist attacks of September 11, 2001. The
                   Aviation and Transportation Security Act of 2001 established the
                   Transportation Security Administration (TSA) and tasked it with securing
                   all modes of transportation, including commercial aviation.1 TSA is
                   responsible for ensuring that all commercial air carrier passengers are
                   prescreened against government terrorist watch lists prior to boarding an
                   aircraft. Specifically, TSA uses the No Fly and Selectee lists, subsets of
                   the Terrorist Screening Database (TSDB)—the U.S. government’s
                   consolidated watch list of all known or reasonably suspected terrorists—to
                   identify individuals who are prohibited from boarding an aircraft or who
                   are to receive additional physical screening prior to boarding an aircraft.

                   Currently, the majority of commercial air carriers, under the direction of
                   TSA, perform passenger prescreening by comparing passenger names to
                   records on the No Fly and Selectee lists. Although commercial air carriers
                   are required to adhere to TSA guidelines that mandate how commercial air
                   carriers conduct watch list screening, air carriers perform this function
                   inconsistently. As a result, The 9/11 Commission Report of 2004
                   recommended that TSA, instead of commercial air carriers, should
                   perform passenger prescreening.2 In doing so, TSA should also use the
                   larger set of terrorist watch lists maintained by the federal government,
                   rather than only the No Fly and Selectee lists, which were solely
                   maintained by TSA at the time.3

         Secure Flight Program Implementation
                   To address federalizing commercial air carrier passenger prescreening as
                   recommended in The 9/11 Commission Report and mandated in the
                   Intelligence Reform and Terrorism Prevention Act of 2004, TSA
                   introduced the concept of the Secure Flight program in August 2004.4 In


1
  Public Law 107-71 (November 19, 2001).
2
  Final Report of the National Commission on Terrorist Attacks Upon the United States (issued 

July 22, 2004), page 393. 

3
  Ibid.

4
  Public Law 108-458 (December 17, 2004). 


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                        Page 3
                                    SENSITIVE SECURITY INFORMATION



                   making passenger prescreening an inherently governmental function,
                   TSA, not commercial air carriers, will bear the responsibility for
                   conducting passenger prescreening. From a policy standpoint, the Secure
                   Flight program will match the full name, date of birth, and gender of
                   passengers against the No Fly and Selectee lists, instead of the current
                   requirement, which is for commercial air carriers to screen only a
                   passenger’s name against the No Fly and Selectee lists. In addition, with
                   the Secure Flight program, in cases where certain yet-to-be-defined
                   security considerations exist, TSA could screen against the federal
                   government’s entire consolidated terrorist watch list for particular flights
                   or routes.

                   Concern regarding TSA’s decision to screen against only the No Fly and
                   Selectee lists prompted Congress, in the Department of Homeland Security
                   Appropriations Act of 2008, to mandate that we report on any potential
                   vulnerabilities to the nation’s aviation system should the Secure Flight
                   program not screen against the full TSDB.5 As an additional provision of
                   the 2008 appropriation, should TSA decide that the Secure Flight program
                   does not need to check commercial air carrier passenger names against the
                   full TSDB, Congress required TSA to certify “that no significant security
                   risks are raised by screening airline passenger names only against a subset
                   of the full terrorist watch list.”6 Congress further stipulated that funding
                   for the implementation of the Secure Flight program would not become
                   available until the Government Accountability Office (GAO) reported on
                   TSA’s success in meeting the conditions specified in the Department of
                   Homeland Security Appropriations Act of 2005.7




5
  Division E – Department of Homeland Security Appropriations Act of 2008, Consolidated Appropriations
Act of 2008, Public Law 110-161 (December 26, 2007).
6
  Public Law 110-161, Division E, 121 STAT. 2053. 

7
  Department of Homeland Security Appropriations Act of 2005, Public Law 108-334 (October 18, 2004),

Sec. 522(a). 


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                        Page 4
                                    SENSITIVE SECURITY INFORMATION



                   TSA management said that after GAO reported on TSA’s fulfillment of
                   the ten congressional conditions, the Secure Flight program began to
                   assume domestic No Fly and Selectee watch list matching responsibilities
                   from commercial air carriers in January 2009, and will begin to assume
                   international watch list screening at some point thereafter. The program’s
                   intended outcome is to:

                        •	 Prohibit terrorists
                           to harm the United States from boarding an aircraft; and

                        •



                   Once Secure Flight is fully operational, commercial air carriers will be
                   required to submit the full name, date of birth, and gender of passengers to
                   the Secure Flight program at approximately 72 hours before a flight. For
                   reservations made within 72 hours of a flight, aircraft operators must
                   submit the required information as soon as feasible after the reservation is
                   made. Secure Flight will then vet names using automated search protocols
                   to clear as many passengers as possible. Any potential matches to
                   individuals on the No Fly and Selectee lists will then go through a manual
                   review process conducted by Secure Flight, TSA’s Office of Intelligence,
                   and the Department of Justice’s Terrorist Screening Center (TSC)
                   analysts, to make identity determinations and to resolve potential matches.
                   The TSC maintains the federal government’s consolidated terrorist watch
                   list. Using a similar process, U.S. Customs and Border Protection (CBP)
                   also leverages its Advance Passenger Information System—which
                   requires commercial air carriers to submit certain passenger manifest
                   information to CBP—for vetting passengers prior to securing an aircraft
                   for departure to or from the United States. CBP continues to provide
                   assistance to TSA’s Office of Intelligence as an additional layer of
                   security to its screening of possible international No Fly matches.

         Terrorist Screening Database
                   In September 2003, Homeland Security Presidential Directive–6 mandated
                   that the “Attorney General shall establish an organization to consolidate the
                   Government’s approach to terrorism screening and provide for the
                   appropriate and lawful use of Terrorist Information in screening

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                        Page 5
                                    SENSITIVE SECURITY INFORMATION



                   processes.”8 In fulfilling this mandate, the Department of Justice
                   established the TSC. Pursuant to Homeland Security Presidential
                   Directive–6, and further clarified in Homeland Security Presidential
                   Directive–11, the TSDB is to contain information about “individuals known
                   or reasonably suspected to be or have been engaged in conduct
                   constituting, in preparation for, in aid of, or related to terrorism.”9 Within
                   the watch-listing community, such individuals are referred to as “known or
                   reasonably suspected terrorists.”

                             Sources for the Terrorist Screening Database

                             The TSDB is populated with biographic and biometric identity
                             information on individuals reasonably suspected of engaging in
                             either international or domestic terrorism. All information
                             contained within the TSDB is sensitive but unclassified, so the
                             broadest range of federal, state, local, and international terrorist
                             screening partners can benefit from using various watch lists
                             derived from the TSDB and exported by the TSC. The term export
                             describes the transfer of record information from one database to
                             another. Although the TSDB serves as the central clearinghouse
                             for all terrorist screening information, all information in the TSDB
                             is derived from two sources, which contain supporting information
                             on each individual who is known or reasonably suspected to be
                             connected to terrorism.

                             The primary source for all information relating to international
                             terrorist identities in the TSDB is the Office of the Director of
                             National Intelligence’s National Counterterrorism Center (NCTC)
                             Terrorist Identities Datamart Environment (TIDE). The NCTC,
                             established by Executive Order 13354 and codified in the
                             Intelligence Reform and Terrorism Prevention Act of 2004,
                             “serve[s] as the primary organization in the United States
                             Government for analyzing and integrating all intelligence possessed
                             or acquired by the United States Government pertaining to terrorism
                             and counterterrorism, excepting intelligence pertaining exclusively

8
  Homeland Security Presidential Directive–6, “Integration and Use of Screening Information to Protect
Against Terrorism” (September 16, 2003).
9
  Homeland Security Presidential Directive–11, “Comprehensive Terrorist-Related Screening Procedures”
(August 27, 2004).

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                        Page 6
                                    SENSITIVE SECURITY INFORMATION



                             to domestic terrorists and domestic counterterrorism.”10 TIDE, a
                             classified system, contains both the identifying and substantive
                             derogatory information on known or reasonably suspected
                             international terrorists. This information is provided to the NCTC
                             through nominations of individuals made by federal agencies, often
                             with the explicit intent for the record to then be exported to the
                             TSDB for watch-listing. Additionally, TIDE contains
                                         records for spouses and children of known or reasonably
                             suspected terrorists, as well as other individuals who have a close
                             relationship with those terrorists. To populate the TSDB, the NCTC
                             exports biographic and biometric identifiers from TIDE records to
                             the TSC on a daily basis. Of the non-terrorist associates contained
                             in TIDE, only data on spouses and children who are not U.S.
                             citizens or lawful permanent residents are exported to the TSDB, in
                             accordance with the Immigration and Nationality Act of 1952,
                             which deems spouses and children meeting certain criteria
                             excludable from admission into the United States.11

                             The remaining information in the TSDB pertains solely to domestic
                             terrorism information. This information is provided to the TSC
                             directly from the Federal Bureau of Investigation (FBI). The FBI’s
                             Automated Case Support system contains additional supporting
                             information on domestic terrorists, beyond any biometric and
                             biographic identifiers, which are exported to the TSDB.

                             Minimum Database Inclusion Criteria

                             Before a record can be exported to the TSDB, it must meet certain
                             minimum biographic and substantive derogatory criteria
                             requirements. The current criteria requirements are derived from
                             the broad Homeland Security Presidential Directive–6 and
                             Homeland Security Presidential Directive–11 standard, which
                             stipulates that only known or reasonably suspected terrorists may
                             be included in the TSDB.

                             Current TSC guidance on nominating individuals to the TSDB
                             further defines the reasonable suspicion standard, by stating that

10
     Public Law 108-458 (December 17, 2004). 

11
     Public Law 82-414 (June 27, 1952), as amended; 8 U.S.C. § 1182(a)(3)(B)(i)(IX).


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                        Page 7
                                    SENSITIVE SECURITY INFORMATION



                             the


                                                 In contrast, information originating from an
                             unreliable source might cause a trained reviewer to discount the
                             information as too tenuous.




                             The minimum biographic identifier requirements necessary for a
                             record to export to the TSDB were revised by the TSC’s Policy
                             Board Working Group in June 2008.




                             Terrorist Screening Database Composition

                             As of May 2008, just prior to implementing the revised minimum
                             biographic inclusion criteria, the TSDB included approximately
                             1,005,000 records. Each alias, including reversed names,
                             nicknames, modified birth dates, or other variations of a single
                             identity or individual, has a separate TSDB record. As a result, TSC
                             officials are not able to pinpoint the precise number of unique
                             persons in the TSDB, but estimate there are approximately

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                        Page 8
                                    SENSITIVE SECURITY INFORMATION



                             distinct identities. Of the        distinct identities,      are
                             citizens or lawful permanent residents of the United States.

         No Fly and Selectee Lists
                   The No Fly and Selectee lists, two TSDB derivative watch lists, are unique
                   among all watch lists derived from the TSDB. They are the only
                   derivative watch lists that have their own minimum substantive derogatory
                   criteria requirements. These requirements are considerably more stringent
                   than the TSDB’s known or reasonably suspected standard. Additionally,
                   the No Fly and Selectee lists have the narrowest minimum biographic
                   inclusion criteria of all TSDB watch lists.

                             Minimum Inclusion Criteria

                             The No Fly and Selectee inclusion criteria were initially
                             established in October 2004 by the Homeland Security Council.
                             This council is a cabinet-level body that coordinates homeland
                             security–related activities and promotes effective homeland
                             security policy development and implementation. The No Fly and
                             Selectee Lists Implementation Guidance accompanying the
                             inclusion criteria was released in January 2005. When establishing
                             the initial criteria, responsibility for maintenance and export of the
                             lists was transferred to the TSC. Prior to this time, TSA
                             maintained the No Fly and Selectee lists. The lists were created in
                             September 2001, before TSA was established, when the Federal
                             Aviation Administration received 125 names from the FBI for
                             inclusion on a No Fly list.

                             No Fly List Criteria

                             The TSC updated and supplemented the implementation guidance
                             in July 2006. Recently, the Homeland Security Council
                                                                            to allow for
                             inclusion of more individuals on the No Fly list. The TSC’s Policy
                             Board Working Group followed suit with new implementation
                             guidance, all of which went into effect in June 2008. Appendix D
                             provides more detail on the No Fly and Selectee List
                             Implementation Guidance.


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                        Page 9
                                    SENSITIVE SECURITY INFORMATION




                             Selectee List Criteria

                             The derogatory information criteria for including an individual on
                             the Selectee list require that an individual who is ineligible for
                             inclusion on the No Fly list meet          the Selectee list criteria.
                             Specifically, the Selectee list should include any person, regardless
                             of citizenship, who is:




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 10
                                    SENSITIVE SECURITY INFORMATION




                             In applying more narrow requirements than the TSDB’s minimum
                             substantive derogatory criteria requirements, the No Fly and
                             Selectee lists are intended to prevent specific categories of
                             terrorists from boarding commercial aircraft or subject these
                             terrorists to secondary screening prior to boarding, and are not for
                             use as law enforcement or intelligence-gathering tools. Past and
                             present implementation guidance emphasizes that the criteria for
                             the No Fly list require a                         and that the
                             Selectee list is not a default for those who do not qualify for
                             inclusion on the No Fly list.

                             The current minimum biographic inclusion criteria for the No Fly
                             and Selectee lists, which were not changed during the June 2008
                             policy revisions, require a
                                     for a TSDB record to export to either list.


                                                                  Given the restrictive derogatory
                             and biographic criteria for inclusion on the No Fly and Selectee
                             lists, these lists combined comprise the smallest exported subset of
                             the TSDB. As of May 2008, the No Fly list contained
                             approximately            records, and the Selectee list contained
                             approximately             records, collectively comprising        of
                             the TSDB’s records. Additionally, the combined number of No
                             Fly and Selectee records represents approximately             distinct
                             identities, of which        are U.S. citizens or lawful permanent
                             residents.

                             Process for Inclusion on the No Fly and Selectee Lists

                             Redundancies in the process through which individuals are added
                             to the No Fly or Selectee list ensure that the proper individuals are
                             watch-listed. For international terrorists, this process starts with a
                             federal agency, usually a member of the U.S. Intelligence
                             Community, nominating an individual for inclusion in TIDE. The

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 11
                                    SENSITIVE SECURITY INFORMATION



                             NCTC’s Terrorist Identities Group reviews nominations for the
                             reliability of derogatory information and the sufficiency of
                             biographic identifying information.

                             Nominating agencies can recommend an individual for inclusion
                             on specific TSDB derivative watch lists, such as the No Fly and
                             Selectee lists. Additionally, although the NCTC is not a
                             nominator, its Terrorist Identities Group analysts, after reviewing
                             all source intelligence information, may identify eligible
                             individuals for watch-listing and contact the originator of the
                             intelligence to request that the individual be nominated for
                             inclusion in TIDE with specific watch list recommendations.
                             Domestic terrorists are nominated to the TSDB via the FBI’s
                             Terrorist Review and Examination Unit, by FBI case agents, and
                             by the FBI’s Counterterrorism Division; also, each of these can
                             make specific watch list recommendations.

                                     the NCTC transmits to the TSC an export of additions and
                             modifications of biographic and biometric identifiers from TIDE,
                             resulting in additions, modifications, and deletions to the TSDB.
                             These transmissions are collectively referred to as nominations.
                             Analysts in the Nominations and Data Integrity Unit at the TSC
                             perform a comprehensive review of each nomination for inclusion
                             eligibility in the TSDB and for appropriateness of export to the
                             various watch lists. As part of this review, TSC analysts review
                             specific recommendations for initial No Fly or Selectee watch-
                             listing, as well as follow-up recommendations for changes to an
                             individual’s No Fly or Selectee status. This review ensures that
                             recommendations are consistent with the biographic and
                             derogatory inclusion criteria. Appendix E provides a graphic
                             representation of the No Fly and Selectee list nomination process.

                             When TSC analysts recommend a change to an individual’s No Fly
                             or Selectee status, the nomination is forwarded to TSA subject
                             matter experts (SME), who are detailed to the TSC from TSA’s
                             Office of Intelligence and Federal Air Marshal Service (FAMS).
                             The SMEs review the previous analyst’s notes and all accessible
                             derogatory information associated with the nomination. When
                             SMEs determine that a change to the No Fly or Selectee status is
                             warranted, TSA coordinates the change with the FBI’s Terrorist

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 12
                                    SENSITIVE SECURITY INFORMATION



                             Review and Examination Unit and case agents for FBI
                             investigative subjects, or with the NCTC for nominations from
                             other federal agencies.

                             Domestic terrorism nominations go through a similar process.
                             TSC domestic terrorism SMEs also review nominations for TSDB
                             inclusion eligibility and for appropriateness to export to various
                             watch lists, including the No Fly and Selectee lists. The SMEs
                             coordinate with the Terrorist Review and Examination Unit to
                             resolve any issues with a nomination or its watch-listing
                             recommendation.

                             TSC quality assurance measures ensure that the correct individuals
                             are on the appropriate watch lists. In addition to the process of
                             determining the No Fly and Selectee status of original and follow-
                             up nominations, the Nominations and Data Integrity Unit conducts
                             periodic reviews of the No Fly and Selectee lists, known as Quality
                             Assurance Special Projects. In 2006, the TSC initiated a
                             comprehensive review of the No Fly list. That review resulted in
                             some individuals being downgraded to the Selectee list while
                             others were removed from both lists because they did not have the


                                                           were removed from the No Fly list
                             because they were neither a threat to the United States nor to
                             commercial aviation. The TSC subsequently conducted a review
                             of the Selectee list with the intent of removing individuals who no
                             longer had

                             Periodic list review ensures that individuals on the No Fly or
                             Selectee lists meet specific nomination and inclusion criteria, thus




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 13
                                    SENSITIVE SECURITY INFORMATION



         Other Watch Lists Derived From the Terrorist Screening Database
                   In addition to the No Fly and Selectee lists, the TSDB exports daily to
                   three other federal watch lists that are also used to conduct terrorism
                   screening. Although none of these databases has its own minimum
                   substantive derogatory criteria beyond the known or reasonably suspected
                   standard, each has minimum biographic criteria requirements and some
                   have additional restrictions.

                             U.S. Customs and Border Protection’s TECS Database

                             TECS serves as DHS’ primary lookout system and receives
                             exports of TSDB records from the TSC. TECS receives subject
                             records from more than 20 federal agencies, includes a wide
                             spectrum of data, and provides alerts for a variety of law
                             enforcement needs. CBP, the principal owner and primary user of
                             TECS, employs the system to screen individuals at land, sea, and
                             air ports of entry, as well as other locations worldwide where CBP
                             may have a presence. A number of other federal law enforcement
                             agencies within and outside of DHS also use TECS as a screening
                             and case management system.

                             Of the federal watch lists that accept records from the TSDB,
                             TECS has the most expansive minimum biographic inclusion
                             criteria and                              from the TSDB. Similar to
                             the TSDB, for a record to export to TECS, it must only
                                                                                  As of May 2008,
                             TECS contained approximately                 TSDB records,
                             comprising         of all records in the TSDB. The              records
                             represent approximately              distinct identities, of which
                                      are U.S. citizens or lawful permanent residents.

                             Department of State’s Consular Lookout and Support System

                             The Department of State’s Consular Lookout and Support System
                             (CLASS) is a name-checking system used to screen visa
                             applications for travel to the United States. A visa allows a foreign
                             national to travel to a U.S. port of entry to request admittance into
                             the country. Administered by the Visa Office within the
                             Department of State’s Bureau of Consular Affairs, CLASS is used

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 14
                                    SENSITIVE SECURITY INFORMATION



                             by consular officers abroad to screen the names of visa applicants
                             against a number of government watch lists, including an exported
                             subset of the TSDB. Once a CLASS name search identifies an
                             individual, and that identity is verified, Department of State
                             consular officers make a determination of visa eligibility according
                             to federal law.

                             Similar to TECS, CLASS has very expansive minimum biographic
                             inclusion criteria, and accepts nearly all records from the TSDB.


                             However, because CLASS is used for visa applicant screening,
                             TSDB records for U.S. citizens or lawful permanent residents do
                             not export to CLASS. Additionally, individuals


                             As of May 2008, CLASS contained approximately                    TSDB
                             records, comprising        of all TSDB records. The
                             records represent approximately             distinct identities. The
                             TSDB also exports records, based on different criteria, to another
                             version of CLASS used to screen passport applicants and includes
                             data on U.S. citizens and lawful permanent residents, a system that
                             is not addressed in our report, because it does not substantively
                             contribute to aviation security.

                             Federal Bureau of Investigation’s Violent Gang
                             and Terrorist Organization File

                             The FBI’s Violent Gang and Terrorist Organization File (VGTOF)
                             is a subset of the National Crime Information Center database used
                             for screening by federal, state, and local law enforcement officers
                             and other criminal justice agencies. VGTOF contains information
                             on known or reasonably suspected terrorists exported from the
                             TSDB, as well as information on gang groups and members from
                             other sources. Each VGTOF terror record has a handling code
                             assigned by the TSDB. For some individuals, the code notifies law
                             enforcement personnel that a valid arrest warrant or detainer may
                             exist.



                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 15
                                    SENSITIVE SECURITY INFORMATION




                             The minimum biographic inclusion criteria for VGTOF are the
                             most restrictive of all federal watch lists, apart from the No Fly and
                             Selectee lists. For a record to export to VGTOF, it must contain a
                             first name, a last name, and           a circa year of birth,
                                                                    As of May 2008, VGTOF
                             contained approximately              TSDB records, comprising
                             of all records in the TSDB. The               records represent
                             approximately             distinct identities, of which         are U.S.
                             citizens or lawful permanent residents. Most terrorism-related
                             identities in VGTOF do not have handling codes that indicate a
                             silent hit or a need for arrest or detention.

                             Additional Non-Federal Watch List Terrorist Screening
                             Database Exports

                             In addition to the No Fly and Selectee lists, TECS, CLASS, and
                             VGTOF, the TSDB exports to several non-federal government
                             watch lists on a regular basis. In accordance with Information
                             Sharing Memoranda of Understanding with                in 1997, and
                             with            in 2000, the United States shares terrorist watch list
                             information with those governments on a reciprocal basis,
                             excluding information on U.S. citizens or lawful permanent
                             residents. As directed by Homeland Security Presidential
                             Directive–6, the TSC, at present, also shares a subset of the TSDB
                             with 13 other foreign countries. Additionally, the entire TSDB is
                             exported daily to the FBI’s Automated Case Support system to
                             alert FBI personnel who are using the system that an individual
                             connected with an investigation is associated with terrorism.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 16
                                    SENSITIVE SECURITY INFORMATION



Results of Review
         No Fly and Selectee Lists Reduce Vulnerabilities to Commercial
         Aviation Security, but Additional Vulnerabilities May Exist
                   The No Fly and Selectee lists are subsets of the TSDB, the federal
                   government’s consolidated watch list. The name inclusion criteria for
                   these two lists are more narrowly focused and restrictive than the inclusion
                   criteria for the entire TSDB. Specifically, the No Fly and Selectee lists
                   focus on aviation security and concentrate on

                                                                                      Although
                   the No Fly and Selectee lists are largely successful in identifying potential
                   terrorists who could threaten commercial aviation, some individuals not
                   included on the lists may also present threats to aviation security.

                             Individuals With                                    to Commit
                             Terrorist Acts Are the Focus of No Fly and Selectee Lists

                             Not all known or reasonably suspected terrorists are prohibited from
                             boarding an aircraft, or are subject to additional security screening
                             prior to boarding an aircraft. This is reflected in the number of
                             records and identities in the TSDB that are not included on the No
                             Fly and Selectee lists. As of May 2008, approximately
                             records, or      of the TSDB, did not export to the No Fly or
                             Selectee list.


                                               Figure 1 breaks down the TSDB records and
                             identities that export to the No Fly and Selectee lists.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 17
                                    SENSITIVE SECURITY INFORMATION



                   Figure 1: Breakdown of Records and Identities That Export to the No Fly and
                   Selectee Lists




                             Known or reasonably suspected terrorists included in the TSDB
                             are not included on the No Fly or Selectee lists if the TIDE
                             information does not meet the minimum standards for sufficient
                             derogatory information.                         of all TSDB records
                             are also not eligible for inclusion on the No Fly or Selectee lists
                             because the records do not meet the biographic data requirement of
                             a                                         Although a review of the
                             No Fly and Selectee lists’ minimum biographic inclusion standard
                             is outside our scope, the Secure Flight program plans to screen
                             against passenger information that includes a full name, complete
                             date of birth, and gender, to ensure accurate name matching to
                             individuals listed on the No Fly and Selectee lists. According to
                             Secure Flight program officials and members of the federal watch-
                             listing community, this plan will reduce the high incidence of
                             individuals mistaken for being on the No Fly or Selectee lists,
                             which is a persistent problem in the passenger prescreening
                             process. Currently,                   are used to conduct passenger
                             watch list matching.

                             No Fly and Selectee Lists Inclusion Criteria and Guidance
                             in More Detail

                             The No Fly and Selectee minimum derogatory inclusion criteria
                             and the TSC’s No Fly and Selectee List Implementation Guidance

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 18
                                    SENSITIVE SECURITY INFORMATION



                             reflect the principles of aviation-focused security. To keep the No
                             Fly and Selectee lists relevant and manageable, the TSC requires
                             that all the information available about an individual should be
                             considered when making No Fly and Selectee watch-listing
                             decisions. Some factors that merit consideration and might
                             mitigate the decision to place an individual on the No Fly or
                             Selectee list are:




                             Further, to identify potential threats posed by known or reasonably
                             suspected terrorists who do not meet the No Fly or Selectee
                             minimum derogatory inclusion criteria, individuals are categorized
                             by their relationship to terrorism or the types of terrorist activities
                             they are known or reasonably suspected to be engaging in. The
                             TSC’s implementation guidance provides an explicit list of
                             categories of individuals who are not suitable for watch-listing on
                             either the No Fly or the Selectee list. These categories are:




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 19
                                    SENSITIVE SECURITY INFORMATION




                             These exclusions further confirm that the focus of the No Fly list
                             should be on individuals who demonstrate the
                                                                              Similarly, the
                             Selectee list covers individuals who do not meet the threshold for
                             inclusion on the No Fly list but nonetheless are


                             Excluding Some Individuals From the No Fly and Selectee
                             Lists Might Present a Vulnerability to Aviation Security

                             Despite the TSC’s guidance and the watch-listing community’s
                             focus                                        excluding some
                             individuals could present a threat to aviation security.

                             There is consensus among the watch-listing community that
                             individuals who have been identified as




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 20
                                    SENSITIVE SECURITY INFORMATION




                                                                     as it would seem to present
                             an unaddressed vulnerability to the aviation security system.
                             scenarios exist with respect to these individuals:




                                                                                  However, TSA procedures
                             do not account for the                                    scenarios.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 21
                                    SENSITIVE SECURITY INFORMATION



                   Recommendation
                             We recommend that the Assistant Secretary, Transportation
                             Security Administration:

                             Recommendation #1: Determine whether it is appropriate to

                                  to No Fly restrictions or additional screening prior to boarding
                             an aircraft.

                   Management Comments and OIG Analysis
                             We evaluated TSA’s written comments and have made changes to
                             the report where we deemed appropriate. A summary of TSA’s
                             written response to the report’s recommendation and our analysis
                             of the response follows the recommendation. A copy of TSA’s
                             response, in its entirety, is included as Appendix B.

                             We also received written comments from the NCTC and have
                             made changes to the report where we deemed appropriate. A copy
                             of the NCTC’s response, in its entirety, is included as Appendix C.
                             In addition, we received technical comments from TSA, CBP, the
                             TSC, the NCTC, and the State Department Bureau of Consular
                             Affairs, and have incorporated these changes into the report where
                             appropriate. We appreciate the comments and contributions made
                             by each entity.

                             TSA Response: TSA concurred in part with this recommendation.
                             In its response, TSA management said the nomination criteria for
                             each list produced from the TSDB are developed and approved by
                             a multiagency working group overseen by the Homeland Security
                             Council. Each individual nominated to a terrorist watch list must
                             independently meet the nomination criteria in order to be watch-
                             listed.
                                                            would require an amendment to
                             the nomination criteria.

                                                                            on the No Fly and
                             Selectee lists, TSA said the only apparent and effective way to
                             ensure that these individuals are restricted from boarding an

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 22
                                    SENSITIVE SECURITY INFORMATION



                             aircraft or undergo additional screening would be to add them to
                             the No Fly or Selectee list. TSA management said this would
                                                                           , and raises privacy and
                             other concerns.
                                                         listed on the No Fly or Selectee list
                             meet the criteria for nomination to either list, these individuals will
                             be placed on the list.

                             TSA management responded further that it will need to explore
                             this issue with other interested agencies to determine whether
                                                                         on the No Fly and Selectee
                             lists to these lists is a prudent step that would enhance security.
                             However, given the privacy and rights issues involved in this
                             recommendation, TSA management said that it is highly unlikely
                             the lists would be              in this manner.

                             OIG Analysis: We consider TSA’s proposed actions responsive
                             to the recommendation, which is resolved and open. However, we
                             believe that TSA’s initial approach to address the recommendation
                             may not be feasible, given that the TSC’s implementation guidance
                             provides an explicit list of categories of individuals who are not
                             suitable for watch-listing on either the No Fly or the Selectee list,


                             The intent of our recommendation is for TSA to determine whether
                             it is appropriate                                           on the
                             No Fly or Selectee lists to No Fly restrictions or additional
                             screening prior to boarding an aircraft. TSA already requires




                             Should TSA determine there is a potential vulnerability to
                             commercial aviation caused by

                                         TSA could address the vulnerability through the use of
                             a security directive. We are not suggesting that TSA take this


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 23
                                    SENSITIVE SECURITY INFORMATION



                             action, but provide it as an example of how TSA could address the
                             potential vulnerability.

                             Major Security Gaps Have Been Addressed by Adding
                                       No Fly Criteria

                             Prior to adding the                   No Fly criteria in June 2008, a
                             critical gap existed in aviation security.




         An Analysis of Encounter Records Demonstrates Watch List
         Effectiveness
                   We analyzed terrorism related encounter records provided by CBP’s
                   National Targeting Center–Passenger and the Department of State’s
                   Bureau of Consular Affairs from June to August 2007. This timeframe


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 24
                                    SENSITIVE SECURITY INFORMATION



                   was selected as representative of the highest volume months for
                   international travel to the United States.

                   To evaluate the effectiveness of the No Fly and Selectee lists in identifying
                   threats to commercial aviation, we reviewed a series of known or
                   reasonably suspected terrorist encounters that were not on either list. Our
                   list was generated from a sample of Department of State visa refusals and
                   revocations and CBP encounters at ports of entry. The intent of the
                   comparison was to examine the effectiveness of the No Fly and Selectee
                   lists in determining potential threats to aviation security by reviewing the
                   TIDE records of individuals encountered by CBP and Department of State.

                   We examined the derogatory information in each TIDE record to
                   determine the appropriateness of each individual’s watch list status. We
                   used the 2006 criteria to determine whether the individual should have
                   been on the No Fly or Selectee lists at the time of the encounter. We then
                   used the revised 2008 criteria to determine whether the individual would
                   now be on the No Fly or Selectee list. As of September 2008, for the 156
                   individuals we reviewed:

                        •               had no TIDE records, or we were unable to match an
                             existing TIDE record to the available information.
                        •                 were watch-listed at one time, but the records were
                             downgraded based on insufficient derogatory information,
                             mistaken matches, or acquisition of clarifying intelligence.
                        •               were



                        •            were in TIDE as the result of an FBI watch list request,
                             and further details regarding the subjects were unavailable.
                        •                 were in TIDE for criminal behavior (e.g., drug or
                             weapons smuggling), as a result of a lost or stolen passport, or


                        •         were in TIDE for                                        or as a
                             potential threat. However, after we reviewed the derogatory
                             information, we concluded that the intelligence reporting was
                             questionable, generally due to the reliability of the reporting. This


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 25
                                    SENSITIVE SECURITY INFORMATION



                             category includes three individuals who were in TIDE as the result
                             of an anonymous, malicious information source.
                        •          had been added to the No Fly or Selectee list subsequent to
                             their encounter with CBP or the Department of State.
                        •          were assessed as
                                                              by the Department of State, and
                             were not considered threats to U.S. interests.

                   We questioned whether two individuals should have been placed on the
                   Selectee list, particularly when the revised 2008 criteria were applied:




                   We coordinated with senior TSC officials and discussed these initial
                   findings. The TSC conducted multiple and comprehensive reviews of the
                   two cases. Their exhaustive reviews determined that the




                   After receiving clarification from the TSC regarding the two individuals
                   whose status we questioned, we determined that all of the known or
                   reasonably suspected terrorists on our list, who could be matched to a
                   TIDE record, did not meet either the 2006 or revised 2008 criteria for No
                   Fly or Selectee list inclusion. This success rate indicates that the No Fly
                   and Selectee lists are successful in identifying individuals who could
                   threaten aviation security. Beyond these individuals not meeting the No
                   Fly and Selectee criteria, none posed a threat to aviation security. This
                   indicates that the use of the No Fly and Selectee lists as prescribed by the
                   implementation guidance is appropriate in identifying individuals who
                   pose threats to aviation security.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 26
                                    SENSITIVE SECURITY INFORMATION



         Interagency Approach to Commercial Aviation Security Helps
         to Mitigate Potential Vulnerabilities and Address Potential Gaps
                   Although the No Fly and Selectee lists are largely successful in identifying
                   potential terrorists who could threaten commercial aviation, passenger
                   prescreening against terrorist watch lists proposed by the Secure Flight
                   program is only one component of a larger security cycle that protects the
                   commercial aviation system. International and domestic security activities
                   within and outside DHS, such as intelligence gathering, law enforcement
                   investigations, visa issuance, and border protection, mitigate potential
                   vulnerabilities not addressed by the Secure Flight program and enhance
                   commercial aviation security overall.

                   Some security activities, such as law enforcement investigations and
                   intelligence collection, take place well before a known or reasonably
                   suspected terrorist,                                attempts to board a
                   commercial aircraft. Other agencies use the intelligence gathered for
                   various terrorist watch-listing activities; each agency has a different focus
                   and set of data tailored specifically for its mission. For example, CBP
                   uses the TSDB-derived portion of TECS to assist in making admissibility
                   decisions for foreign nationals at ports of entry, and the Department of
                   State uses the TSDB-derived portion of CLASS to determine visa
                   eligibility.

                   Regardless of the primary purpose for each agency’s watch list screening
                   activities, these activities function in parallel, and significantly contribute
                   to multiple layers of aviation security. When combined with other
                   security measures that are not based on watch-listing, such as passenger
                   security screening conducted by TSA and law enforcement operations
                   conducted by the FAMS, the multiple, overlapping components of the
                   security cycle assist in mitigating potential aviation security
                   vulnerabilities. Appendix F provides a graphic representation of the way
                   in which comprehensive, multiagency watch list screening, along with
                   other security activities, enhances aviation security.

                             International and Domestic Intelligence Gathering Is a Key
                             Element of Aviation Security

                             One foundation of a cross-cutting approach to aviation security is
                             the international and domestic intelligence gathering activities

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 27
                                    SENSITIVE SECURITY INFORMATION



                             conducted, recorded, and shared among the members of the
                             Intelligence Community. These activities, such as the collection
                             and analysis of human intelligence by the Central Intelligence
                             Agency or intelligence-gathering by interception of electronic
                             signals by the National Security Agency, identify individuals
                             known or reasonably suspected to be associated with international
                             terrorism prior to their travel to, and potential entry into, the
                             United States.

                             Domestically, the FBI is the lead agency responsible for collecting
                             information on international terrorists. The FBI’s collection
                             activities are not limited to known or reasonably suspected
                             terrorists on the No Fly and Selectee lists. Individuals of interest
                             can be investigated and surveilled up to and including when they
                             fly domestically. FBI Joint Terrorism Task Forces, which were
                             established in the 1980s and have grown significantly after the
                             September 11, 2001, terrorist attacks, consist primarily of federal,
                             state, and local law enforcement officers who identify and
                             investigate domestic and foreign terrorist groups and individuals
                             operating within the United States.

                             Additionally, FBI Field Intelligence Groups combine FBI
                             intelligence analysts, special agents, linguists, and surveillance
                             specialists who provide a channel for information to feed through
                             the intelligence community. Other intelligence collection activities
                             include the FBI-led Foreign Terrorist Tracking Task Force,
                             established by Homeland Security Presidential Directive–2. This
                             task force is an interagency group that collects and analyzes a wide
                             range of government and publicly available data on suspected
                             terrorists who are not in the United States. The ultimate aim is to
                             collect sufficient information on suspected terrorists that will
                             prevent them from entering the United States. When necessary,
                             the task force locates, detains, removes, or prosecutes these
                             individuals. The FBI is also responsible for intelligence collection
                             on and investigation of purely domestic terrorist organizations and
                             identities.

                             International and domestic intelligence gathered on a known or
                             reasonably suspected international terrorist is then provided to the
                             Office of the Director of National Intelligence’s NCTC, which

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 28
                                    SENSITIVE SECURITY INFORMATION



                             centralizes terrorism-related intelligence through its administration
                             of TIDE. The NCTC then exports terrorist identity information
                             from TIDE to the Department of Justice’s TSC, which serves as a
                             central repository for this information through its administration of
                             the TSDB. Terrorist identifiers based purely on domestic terrorism
                             information gathered by the FBI are directly nominated to the
                             TSDB, with the primary purpose of disseminating terrorist identity
                             information to support the terrorist watch-listing needs of federal,
                             state, local, and international agencies.

                             Department of State Visa Refusals and Revocations Block
                             Foreign Terrorists From Boarding International Flights

                             Department of State nonimmigrant visa issuance overseas,
                             informed by terrorism-related intelligence collection, is one of the
                             first operational components in the broader aviation security cycle.
                             Consular officers in the field who process visa applications
                             conduct name checks using CLASS. When CLASS indicates a
                             terrorism-related lookout based on exported TSDB records, it
                             signals the consular officers to contact the Bureau of Consular
                             Affairs’ Visa Office to obtain a Security Advisory Opinion
                             regarding the visa applicant.

                             Security Advisory Opinions Confirm Identity and Any Possible
                             Derogatory Information

                             When the Visa Office receives a request for a Security Advisory
                             Opinion, two determinations are made. First, the Visa Office, in
                             conjunction with the TSC, confirms that the identity of the applicant
                             matches the TSDB and underlying TIDE record. Second, when the
                             individual’s identity is confirmed, the Visa Office reviews the
                             derogatory information on the individual, if any, and advises the
                             consular officer regarding visa eligibility based on the Immigration
                             and Nationality Act of 1952, as it relates to terrorism.14

                             Additionally, when the Department of State discovers derogatory
                             information on an individual after a visa has been issued, such as
                             the creation of a new TIDE record or an update to an existing

14
     Public Law 82-414 (June 27, 1952), as amended; 8 U.S.C. § 1182(a)(3)(B)(i)(IX).

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 29
                                    SENSITIVE SECURITY INFORMATION



                             TIDE record, the Bureau of Consular Affairs can prudentially
                             revoke the visa, forcing the individual to reapply and submit to
                             another full review process. Although the Department of State’s
                             focus regarding visa issuance is on admissibility into the United
                             States, its comprehensive visa refusal and revocation procedures
                             also keeps individuals denied visas for terrorism-related reasons
                             from boarding aircraft bound for the United States.

                             Efforts to Address Potential Visa Waiver Program Security Gaps

                             One potential security gap not addressed in the visa process stems
                             from foreign nationals eligible for participation in the Visa Waiver
                             Program (VWP). The VWP enables foreign nationals from 35
                             designated countries to apply for admission to the United States for
                             90 or fewer days as nonimmigrant visitors, for business or
                             pleasure, without first obtaining a visa. In response to this risk,
                             CBP implemented the Internet-based Electronic System for Travel
                             Authorization program to screen VWP applicants before they
                             travel to the United States. This process became mandatory in
                             January 2009, pursuant to Section 217 of the Immigration and
                             Nationality Act of 1952, as amended by Section 711 of the
                             Implementing Recommendations of the 9/11 Commission Act
                             of 2007, which required DHS to implement an electronic travel
                             authorization system and other measures to enhance the security of
                             the VWP.15 These travelers are required to apply for and receive
                             an approved travel authorization via the Electronic System for
                             Travel Authorization to board a commercial aircraft or vessel
                             bound for the United States. Applications are preferred within
                             72 hours prior to intended travel, although immediate eligibility
                             determinations can be made in most cases.

                             Once an Electronic System for Travel Authorization application
                             has been successfully completed and submitted online, the
                             application is vetted against appropriate law enforcement and
                             terrorism databases. Individuals who are denied travel
                             authorization for any reason will not be allowed to board and will
                             subsequently be funneled back into the visa process, where they
                             will have to apply to the Department of State for a nonimmigrant

15
     Public Law 82-414 (June 27, 1952), as amended, and Public Law 110-53 (August 3, 2007), respectively.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 30
                                    SENSITIVE SECURITY INFORMATION



                             visa. Additionally, an authorization from this program, which is
                             similar to a visa, is an allowance for travel to a U.S. port of entry
                             and not a guarantee of admission into the United States.

                             CBP Security Efforts Identify Potential Threats
                             to International Aviation Prior to Departure
                             and Other Threats Upon Arrival

                             Beyond the Electronic System for Travel Authorization program,
                             CBP engages in a number of security activities that contribute to
                             international and domestic aviation security. These activities take
                             place before international passengers board an aircraft to travel to
                             the United States, and after passengers arrive at U.S. ports of entry.

                             National Targeting Center–Passenger Assesses Risk for All
                             International Travelers and Assists Other CBP Processes

                             The National Targeting Center–Passenger (NTC–P) centralizes and
                             coordinates CBP’s anti-terrorism targeting of international
                             passengers mission. The NTC–P processes all terrorism-related
                             encounters using automated watch list matching. The latest
                             requirements of the Advance Passenger Information System
                             (APIS) further enhance the NTC–P’s capabilities. As of
                             December 2008, APIS requires, depending on mode of submission,
                             that commercial air carriers, as well as private aircraft, submit
                             certain passenger information to CBP for vetting in advance of
                             flight departure. The modes of submission are either 30 minutes
                             prior to securing the aircraft for departure for APIS data submitted
                             in batches, or no later than securing the aircraft doors for departure
                             for data submitted in real-time using APIS Quick Query. Despite
                             these minimum requirements, CBP encourages commercial air
                             carriers to submit APIS information up to 72 hours in advance of
                             the flight’s scheduled departure.

                             Overseas, CBP Representatives Use Vetting Information
                             to Facilitate Denial of Boarding

                             CBP representatives overseas, as part of the Immigration Advisory
                             Program, use targeting information from the NTC–P’s terrorism
                             vetting operations to assist in preventing potential terrorists from

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 31
                                    SENSITIVE SECURITY INFORMATION



                             boarding commercial aircraft destined for the United States. Under
                             the program, officers posted at foreign airports take terrorism-
                             related targeting results, as well as other passenger information,
                             and determine which individuals will be ineligible to enter the
                             United States upon arrival at a port of entry. CBP officers will
                             make “no board” recommendations to commercial air carriers and
                             host governments regarding these passengers. These
                             recommendations are generally heeded by commercial air carriers
                             and foreign governments, as the carrier may bear the cost of the
                             return trip for an individual refused entry into the United States.
                             The recommendations also prevent known or reasonably suspected
                             terrorists, even those who are not on the Selectee list, from
                             boarding an aircraft to the United States.

                             CBP Admissibility Determinations at U.S. Ports of Entry Prevent
                             Potential Terrorists From Entering the United States

                             Under the authority of the Immigration and Nationality Act
                             of 1952, CBP uses its immigration inspection authority at U.S.
                             ports of entry to examine foreign nationals and U.S. citizens, as
                             well as their personal property, prior to determining
                             admissibility.16 CBP officers are authorized to conduct a number
                             of inspection activities, including questioning under oath and
                             detailed examinations of individuals, luggage, vehicles, and
                             documents. A warrant is not required to conduct these activities.

                             Officers rely on these physical searches, their experience in
                             observing and assessing traveler behavior, and documents to
                             determine who is or is not admissible to the United States. In
                             addition, at U.S. ports of entry CBP officers have access to CBP’s
                             system of law enforcement databases to conduct searches and
                             obtain previously generated targeting information to determine the
                             identity and nationality of each applicant seeking admission.
                             Combined, these tools prevent the entry of ineligible foreign
                             nationals such as criminals, terrorists, and drug traffickers,


                                            As such, CBP’s immigration inspection authority

16
     Public Law 82-414 (June 27, 1952), as amended; 8 U.S.C. § 1225.

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 32
                                    SENSITIVE SECURITY INFORMATION



                             prevents foreign known or reasonably suspected terrorists who
                             were not already barred from boarding an aircraft to the United
                             States from entering the country, thereby precluding domestic
                             travel.

                             Additional TSA and Commercial Air Carrier Security
                             Activities Mitigate Potential Threats to Aviation Posed
                             by Passengers, Regardless of No Fly or Selectee Status

                             Although TSA’s Secure Flight program screens passenger
                             information against only the No Fly and Selectee subsets of the
                             TSDB, TSA and commercial air carriers employ various passive
                             and active security measures that mitigate potential vulnerabilities
                             posed by individuals, regardless of watch list status. These airport
                             security activities include behavior detection, computer-based
                             analysis of reservation information by commercial air carriers,
                             passenger screening, more extensive secondary passenger
                             screening, random and deterrent-based screening of passengers
                             after initial screening, law enforcement operations to physically
                             secure aircraft while in-flight, and additional watch list screening
                             flexibility within the Secure Flight program.

                             Certain Security Considerations Allow Secure Flight to Screen
                             Against Expanded Subsets of the Terrorist Screening Database

                             The Secure Flight program has the flexibility to screen against the
                             full TSDB, as well as other intelligence or law enforcement
                             databases. This capability is responsive to the 9/11 Commission’s
                             recommendation that TSA use “the larger set of watch lists
                             maintained by the federal government” for aviation screening.
                             Implementing expanded screening would not be arbitrary; instead,
                             it would be based on credible intelligence or law enforcement
                             information, such as TSA learning that a flight on a particular route
                             may be subject to an increased security risk. In this situation, TSA
                             would have the ability to focus its expanded watch list screening
                             on that particular route or departure and arrival airports. TSA is
                             currently defining the mechanism and process through which it
                             will assess security conditions where expanded watch list
                             screening would be prudent.


                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 33
                                    SENSITIVE SECURITY INFORMATION



                             Computer-Assisted Passenger Prescreening System Analyzes
                             Trends in Reservation Data and Provides Additional Screening for
                             Potential Terrorists

                             Watch list screening is supplemented by the Computer-Assisted
                             Passenger Prescreening System (CAPPS), a computer-based
                             system that analyzes reservation information for certain travel
                             behaviors associated with threats to aviation security. Reservation
                             information used for this analysis may include a passenger name,


                             Although TSA provides program oversight, CAPPS is operated by
                             individual commercial air carriers. The CAPPS program is
                             embedded in each air carrier’s reservation system.

                             Security Measures at Airports Contribute to Aviation Security,
                             Irrespective of Watch List Screening

                             Transportation Security Officers (TSO) stationed at more than
                             450 airports across the United States screen more than 2 million
                             passengers daily. Every passenger is required to be screened
                             before entry into sterile areas of an airport—the controlled portion
                             of an airport that is only accessible by screened or authorized
                             individuals. Primary passenger security screening generally
                             involves travelers, airport employees, or flight crew walking
                             through a metal detector and having their carry-on baggage
                             x rayed. These screening efforts apply to all who enter the sterile
                             area, regardless of watch list status.

                             Secondary passenger security screening is conducted when TSOs,
                             law enforcement officers, Behavior Detection Officers, or other
                             TSA officials indicate that it is warranted; a passenger is a match
                             to the Selectee watch list; or CAPPS behavioral analysis has
                             flagged a passenger. Secondary screening may also occur as a
                             result of random selection or detection of a suspicious object in the
                             person’s possession or in carry-on items during primary screening.
                             Secondary passenger screening involves hand-wanding with a
                             portable metal detector, and may include a full-body pat-down
                             inspection or voluntary whole-body imaging with newer
                             technology that visually screens travelers. A passenger’s carry-on

                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 34
                                    SENSITIVE SECURITY INFORMATION



                             baggage is generally opened and examined, as well as inspected
                             with a machine that detects traces of explosives.

                             Passenger security screening is further enhanced by TSA’s
                             Screening Passengers by Observation Techniques program.
                             Behavior Detection Officers are stationed near security
                             checkpoints and trained to detect behaviors exhibited by
                             individuals that may be indicative of a person who poses a possible
                             threat to aviation or transportation security. Travelers are observed
                             for involuntary physical and physiological reactions that people
                             exhibit in response to a fear of being discovered. Behavior
                             Detection Officers may also casually speak with an individual to
                             further ascertain possible causes for a stress reaction. Individuals
                             exhibiting specific observable behaviors and subconscious actions
                             that indicate a high stress level, fear, or deception may be referred
                             for secondary passenger screening. When warranted, law
                             enforcement officers may also conduct more detailed questioning
                             of passengers.

                             In the sterile area, random screening as part of TSA’s Aviation
                             Direct Access Screening Program occurs at gates and can include
                             checking passenger identification and boarding passes, conducting
                             physical searches of carry-on baggage, and using handheld
                             explosive detection units. Since these checks are unannounced, it
                             is more difficult for terrorists to predict the type and nature of
                             security at any one airport. This security measure can also be
                             adjusted to accommodate law enforcement or intelligence-based
                             elevated threats at specific airports or to specific flights.

                             Federal Air Marshal Service Routine and Special Mission
                             Coverage of Flights Mitigates Potential Threats

                             TSA’s FAMS provides routine coverage on high-risk U.S.
                             commercial air carrier flights, both domestic and international,
                             which are identified using intelligence-driven and risk-based
                             analyses. Beyond routine coverage, FAMS conducts Special
                             Mission Coverage to support other law enforcement agencies and
                             their activities.



                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 35
                                    SENSITIVE SECURITY INFORMATION



                             Special Mission Coverage is sometimes based on intelligence
                             information not specific to an individual, which results in coverage
                             for a specific flight or route. Although the first priority of FAMS
                             is the security of the aircraft, passengers, and crew, Special
                             Mission Coverage is also used for surveillance as a collateral law
                             enforcement function, with most surveillance requests coming
                             from the FBI. Surveillance contributes to tracking the movements
                             of criminals and subjects of interest.

                             Use of the FBI’s National Crime Information Center Database
                             Provides Additional Intelligence on Potential Terrorists

                             If a known or reasonably suspected terrorist gains entry to the
                             United States, domestic terrorist watch list screening contributes to
                             domestic investigative and intelligence activities, even when
                             individuals are not on the No Fly or Selectee list. One watch-listing
                             mechanism is the VGTOF subset of the National Crime Information
                             Center database. Anytime a National Crime Information Center
                             database search results in a match to a known or reasonably
                             suspected terrorist, this information is relayed to the TSC. This is
                             also true for encounters as a result of any watch list screening
                             activity, such as a TECS or CLASS match. When the individual is
                             the subject of a terrorism investigation, units within the FBI
                             coordinate with the case agent in charge of the investigation.
                             Encounter information is also added to TIDE records. The
                             intelligence gathering cycle and its feedback into the national watch-
                             listing architecture ensures that individuals are correctly watch-
                             listed, which reflexively secures our commercial aviation system.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 36
                                    SENSITIVE SECURITY INFORMATION



Conclusion
                   Potential threats to aviation security will always exist, regardless of efforts
                   taken to eliminate all possible sources of risk. However, comprehensive,
                   interagency security measures, which form the components of a larger
                   aviation security cycle, help mitigate potential vulnerabilities to
                   commercial aviation. The No Fly list is successful in ensuring that

                   do not fly. The Selectee list further assists in ensuring

                                                          are subject to additional physical screening.

                   Additionally, individuals listed in the consolidated TSDB who were
                   encountered but not included on the No Fly and Selectee lists were not a
                   threat to commercial aviation, and appropriately were not included on the
                   watch lists according to existing criteria. Furthermore, although TSA uses
                   only a limited subset of the TSDB to prescreen passengers, collateral
                   security measures by the Department of State and CBP ensure that all
                   known and reasonably suspected terrorists are screened prior to boarding an
                   aircraft bound for or departing from the United States. These foreign
                   passengers may be denied admission into the country, but CBP cannot
                   prevent the entry of U.S. citizens or lawful permanent residents into the
                   United States. Various TSA security measures also contribute to aviation
                   security, regardless of an individual’s watch list status. Lastly, although
                   domestic watch list screening associated with commercial aviation only
                   occurs for individuals on the No Fly and Selectee lists, law enforcement
                   efforts fill this gap by investigating potential terrorists. These efforts further
                   protect aviation security by feeding valuable intelligence and information on
                   the domestic activities of potential terrorists back into the watch-listing
                   process.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 37
                                                            SENSITIVE SECURITY INFORMATION
Appendix A
Purpose, Scope, and Methodology
Appendix A: Purpose, Scope, and Methodology




                                              In response to a congressional mandate in the Department of Homeland
                                              Security Appropriations Act of 2008 (Public Law 110-161, Division E),
                                              we assessed whether potential vulnerabilities exist to the commercial
                                              aviation system, as the Secure Flight program screens passenger names
                                              against only the No Fly and Selectee subsets of the TSDB, rather than the
                                              entire TSDB. Specifically, our objective was to determine whether
                                              potential vulnerabilities to the aviation system exist as a result of
                                              screening commercial air carrier passenger names against a subset of the
                                              TSDB, instead of the entire database.

                                              We reviewed the watch list criteria and compositions of the No Fly and
                                              Selectee lists and the full consolidated TSDB. We also reviewed the
                                              difference between the criteria for inclusion on the No Fly and Selectee
                                              lists and criteria for inclusion in the full TSDB.

                                              We interviewed representatives from federal agencies involved specifically
                                              in aviation security and watch list maintenance, including TSA, CBP,
                                              FAMS, DHS’ Screening Coordination Office, U.S. Immigration and
                                              Customs Enforcement, U.S. Department of State, Bureau of Consular
                                              Affairs, U.S. Department of Justice, FBI, TSC, and the Office of the
                                              Director of National Intelligence, NCTC.

                                              Additionally, we analyzed terrorism-related encounter data provided by
                                              CBP’s NTC–P and the U.S. Department of State’s Bureau of Consular
                                              Affairs, from June to August 2007, which was selected as representative
                                              of the highest volume months for international travel to the United States.
                                              We refined the data by removing duplicate encounter records and
                                              encounters not associated with a TIDE record. We then matched the
                                              encounters against the No Fly and Selectee lists for the same period,
                                              provided by TSA’s Office of Intelligence, to identify individuals on those
                                              lists at the time of their encounter. Any individuals identified on the No
                                              Fly or Selectee list were removed from the sample. We further eliminated
                                              the bulk of CBP records representing individuals admitted without
                                              incidence and certain other records not related to immigration inspection
                                              activities. With this sample of individuals who had TIDE records, but
                                              were not on the No Fly or Selectee list, we examined each TIDE record to
                                              determine whether:



                                                            SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                                               Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                                             Page 38
                                    SENSITIVE SECURITY INFORMATION
Appendix A
Purpose, Scope, and Methodology

                        •	 The individual should have been on the No Fly or Selectee list,
                           based on the July 2006 No Fly and Selectee criteria and
                           implementation guidance at the time of the encounter;

                        •	 The individual would be on the No Fly or Selectee list now, based
                           on the revised June 2008 No Fly and Selectee criteria and
                           implementation guidance; and

                        •	 The individual should be on the No Fly or Selectee list for any
                           reason, but is excluded from those lists due to insufficiencies in the
                           No Fly and Selectee criteria and implementation guidance.

                   We also reviewed applicable legislation, regulations, directives, policies,
                   operating procedures, and official guidance documents and manuals. In
                   addition, we studied work previously performed by our office in this and
                   associated areas, as well as the work conducted by GAO, U.S. Department
                   of Justice Office of Inspector General, U.S. Department of State Office of
                   Inspector General, and the Office of the Director of National Intelligence
                   Office of Inspector General.

                   Although we focused on the potential vulnerabilities to the commercial
                   aviation system caused by the Secure Flight program’s intention to screen
                   commercial air carrier passenger names against a subset of the
                   consolidated terrorist watch list, GAO has conducted other reviews of the
                   program. In the past, GAO highlighted numerous problems with the
                   development of Secure Flight and identified challenges that TSA
                   continues to face in implementing the program. Our report does not
                   duplicate GAO’s previous work.

                   Our fieldwork began in March 2008 and concluded in September 2008.
                   We initiated this review under the authority of the Inspector General Act
                   of 1978, as amended, and according to the Quality Standards for
                   Inspections, issued by the President’s Council on Integrity and Efficiency.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 39
                                                                      SENSITIVE SECURITY INFORMATION
Appendix B
TSA Management Comments to the Draft Report
ppendix B: TSA Management Comments to the Draft Report




                                                                      SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                                                         Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                                                       Page 40
                                    SENSITIVE SECURITY INFORMATION
Appendix B
TSA Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 41
                                    SENSITIVE SECURITY INFORMATION
Appendix B
TSA Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 42
                                    SENSITIVE SECURITY INFORMATION
Appendix B
TSA Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 43
                                                                        SENSITIVE SECURITY INFORMATION
Appendix C
NCTC Management Comments to the Draft Report
Appendix C: NCTC Management Comments to the Draft Report




                                                                        SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                                                           Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                                                         Page 44
                                    SENSITIVE SECURITY INFORMATION
Appendix C
NCTC Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 45
                                                                                      SENSITIVE SECURITY INFORMATION
Appendix D
No Fly and Selectee List Implementation Guidance June 2008
Appendix D: No Fly and Selectee List Implementation Guidance June 2008




On October 21, 2004, the Homeland Security Council Deputies Committee—which
serves as the senior sub-cabinet level interagency forum for consideration of policy issues
affecting homeland security—established the initial criteria for the No Fly and Selectee
lists. On February 8, 2008, the same committee approved the addition
       criterion to the No Fly list, as provided below.17

No Fly List:

Any person, regardless of citizenship, who represents a threat of




Selectee List:

Any person, regardless of citizenship, in the TSDB who does not meet the criteria to be
placed on the No Fly list and who is:




17
  Original text of the No Fly and Selectee List Implementation Guidance, as transmitted to DHS by the
TSC in June 2008.


                                                                                      SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                                                                         Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                                                                       Page 46
                                    SENSITIVE SECURITY INFORMATION
Appendix D
No Fly and Selectee List Implementation Guidance June 2008




Since January 2005, the watch-listing community has gained extensive experience with
all aspects of the No Fly list, to include nominations, quality assurance, encounters,
downgrades, and litigation. The No Fly and Selectee list guidance set forth below is
neither intended to be determinative, nor intended to serve as a checklist. Rather, it is
intended to guide the watch-listing community in assessing whether the established
criteria is satisfied for a specific record, based on the totality of available information.




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 47
                                    SENSITIVE SECURITY INFORMATION
Appendix D
No Fly and Selectee List Implementation Guidance June 2008




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 48
                                    SENSITIVE SECURITY INFORMATION
Appendix D
No Fly and Selectee List Implementation Guidance June 2008




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 49
                                    SENSITIVE SECURITY INFORMATION
Appendix D
No Fly and Selectee List Implementation Guidance June 2008




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 50
                                    SENSITIVE SECURITY INFORMATION
Appendix D
No Fly and Selectee List Implementation Guidance June 2008




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 51
                                    SENSITIVE SECURITY INFORMATION
Appendix D
No Fly and Selectee List Implementation Guidance June 2008




Not suitable for either the No Fly or the Selectee List:




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 52
                                    SENSITIVE SECURITY INFORMATION
Appendix D
No Fly and Selectee List Implementation Guidance June 2008




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 53
                                                                       SENSITIVE SECURITY INFORMATION
Appendix E
No Fly and Selectee List Nomination Process
Appendix E: No Fly and Selectee List Nomination Process




                                                                       SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                                                          Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                                                        Page 54
                                                                 SENSITIVE SECURITY INFORMATION
Appendix F
Securing Commercial Aviation Through Intelligence Gathering, Watch List Screening, Law Enforcement,
and Other Programmatic and Operational Efforts




                                                                 SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520. No part of this record may be disclosed to persons without a
“need to know” as defined in 49 CFR parts 15 and 1520, except with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public disclosure is governed by 5 U.S.C. 552 and 49 CFR
parts 15 and 1520.

                                                   Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                                                    Page 55
                                                             SENSITIVE SECURITY INFORMATION
Appendix G
Major Contributors to This Report
Appendix G: Major Contributors to This Report




                                                      Marcia Moxey Hodges, Chief Inspector, Department of Homeland
                                                      Security, Office of Inspector General, Office of Inspections

                                                      Katherine Roberts, Inspector, Department of Homeland Security,
                                                      Office of Inspector General, Office of Inspections

                                                      Jordan Brafman, Inspector, Department of Homeland Security,
                                                      Office of Inspector General, Office of Inspections

                                                      Michael Short, Intelligence Officer, Department of Homeland
                                                      Security, Office of Inspector General, Office of Inspections




                                                             SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                                                Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                                              Page 56
                                               SENSITIVE SECURITY INFORMATION
Appendix H
Report Distribution
Appendix H: Report Distribution




                                        Department of Homeland Security

                                        Secretary
                                        Deputy Secretary
                                        Chief of Staff for Operations
                                        Chief of Staff for Policy
                                        Deputy Chiefs of Staff
                                        General Counsel
                                        Executive Secretary
                                        Assistant Secretary for Transportation Security Administration
                                        Assistant Secretary for Office of Policy
                                        Assistant Secretary for Office of Public Affairs
                                        Assistant Secretary for Office of Legislative Affairs
                                        Commissioner, U.S. Customs and Border Protection
                                        Director, National Targeting Center–Passenger
                                        Director, GAO/OIG Liaison Office
                                        TSA Audit Liaison
                                        CBP GAO/OIG Liaison

                                        U.S. Department of Justice

                                        Director, Terrorist Screening Center
                                        FBI Inspection Division Liaison
                                        DOJ GAO/OIG Liaison

                                        U.S. Department of State

                                        Assistant Secretary, Bureau of Consular Affairs

                                        Office of the Director of National Intelligence

                                        Director, National Counterterrorism Center
                                        Chief, Terrorist Identities Group, National Counterterrorism Center

                                        Office of Management and Budget

                                        Chief, Homeland Security Branch
                                        DHS OIG Budget Examiner


                                               SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                                  Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                                Page 57
                                    SENSITIVE SECURITY INFORMATION
Appendix H
Report Distribution

                             Congress

                             Congressional Oversight and Appropriations Committees, as
                             appropriate




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies,
public disclosure is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.

                      Role of the No Fly and Selectee Lists in Securing Commercial Aviation

                                                       Page 58
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
